No.

INTHE
SUPREME COURT OF THE UNITED STATES

Dr. Bellur G. Shiva Prasad
PETITIONER (Your Name)
VS.
GE Aviation & GE Company
RESPONDENT (S)
PROOF OF SERVICE
l Dr. BellurG. Shiva Prasad

do swear or declare that on this date,
1 -17 - 2020, as required by Supreme Court Rule 29, I have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Mr. Cole D. Bond: Keating, Muething & Klekamp. 1 E. Fourth Street. Suite 1400,
Cincinnati. OFI 45202
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

1 -17 - 2020

&

Signature

